                      U.S. Department of Agriculture

                         Office of Inspector General
                                     Midwest Region




            Audit Report
      Review of Pathogen Reduction
Enforcement Program Sampling Procedures




                         Report No. 24601- 0007-Ch
                                   September 2006
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250




DATE:         September 28, 2006

REPLY TO
ATTN OF:      24601-0007-Ch

TO:           Barbara J. Masters, D.V.M
              Administrator
              Food Safety and Inspection Service

ATTN:         William C. Smith
              Assistant Administrator
              Office of Program Evaluation, Enforcement and Review

FROM:         Robert W. Young                /s/
              Assistant Inspector General
                for Audit

SUBJECT:       Review of Pathogen Reduction Enforcement Program Sampling Procedures


This report presents the results of our audit of the Food Safety and Inspection Service’s (FSIS)
pathogen reduction efforts. Our audit evaluated the effectiveness of FSIS’ process for scheduling
and conducting microbiological testing of meat and poultry products.

The FSIS response to the official draft report is included in exhibit D with excerpts and the
Office of Inspector General’s position incorporated into the Findings and Recommendations
sections of the report. Based on the response, we have reached management decisions on
Recommendations 1, 2, 3, 4 and 6. Please follow your agency’s internal procedures in
forwarding documentation for final action to the Office of the Chief Financial Officer.

Management decision has not been reached for Recommendation 5. Management decision can
be reached on this recommendation once you have provided the additional information outlined
in the report section, OIG Position.

In accordance with Departmental Regulation 1720-1, please provide a reply within 60 days
describing the corrective action taken and planned, including timeframes for their
implementation. Please note that the regulation requires that management decisions be reached
on all recommendations within a maximum of 6 months from report issuance.

We appreciate the courtesies and cooperation extended to the auditors by your staff during the
audit.

Attachment
Executive Summary
Review of Pathogen Reduction Enforcement Program Sampling Procedures
(Audit Report No. 24601-0007-Ch)

Results in Brief                      The Pathogen Reduction Enforcement Program (PREP) is a database and
                                      monitoring system maintained by FSIS’ Office of Public Health and Science
                                      (OPHS). The system is used to support FSIS’ pathogen reduction efforts by
                                      scheduling microbiological product sampling at FSIS-inspected meat and
                                      poultry establishments, and generating automated reports that allow FSIS
                                      managers to monitor both the sampling process and the results of laboratory
                                      tests. PREP supports the science-based Hazard Analysis and Critical Control
                                      Point (HACCP) system as a tool for preventing and controlling
                                      contamination through Salmonella testing. In addition, it is used to identify
                                      selected products for testing of the adulterants E. coli O157:H7 and Listeria
                                      monocytogenes. The PREP system became operational in 2001, and has been
                                      a valuable tool in FSIS’ pathogen reduction efforts.

                                      We found that in the testing programs for the adulterants E. coli 0157:H7 and
                                      Listeria monocytogenes, FSIS had developed procedures to transfer
                                      establishment data from the Performance Based Inspection System (PBIS)1 to
                                      PREP (two separate systems), and was selecting the identified establishments
                                      for testing within reasonable timeframes. However, we found that controls
                                      still need to be materially strengthened within the Salmonella testing program
                                      to ensure that all establishments are included as required in microbiological
                                      testing programs. We found a significant number of establishments that were
                                      excluded from the Salmonella sampling database because of ineffective
                                      controls to identify eligible establishments and also because district office
                                      personnel did not fully understand the process for including the
                                      establishments in the database. At the district we visited, 28 percent of the
                                      establishments that should have been subject to Salmonella testing were
                                      excluded from the sampling database. This problem was particularly
                                      apparent at establishments inspected under Federal-State Cooperative
                                      Programs (Talmadge-Aiken establishments) in the one State we visited. The
                                      State supervisors responsible for program oversight at these establishments
                                      were not provided with the eligibility reports that could have allowed them to
                                      identify establishments that needed to be included in the sampling database.




1
    “The Performance Based Inspection System (PBIS) was implemented in 1989 to provide a method of scheduling inspection tasks and recording their
    results. Each establishment has a PBIS establishment profile, maintained by the FSIS inspector, which identifies the species slaughtered and/or
    processed as well as other key data pertaining to the establishment.”
    USDA/OIG-A/24601-0007-Ch                                                                                                                Page i
                  Although the 2002 ConAgra recall highlighted the risks of exempting
                  establishments from microbiological testing by FSIS field laboratories, we
                  noted that some establishments continue to be excluded from product testing.
                  Specifically, we found that because of the time needed to collect and test the
                  required number of samples to complete a sampling set under the PR/HACCP
                  Salmonella testing program, establishments whose slaughter or processing
                  activity falls below a specific threshold are not subject to product testing.
                  Likewise, establishments that produce non-intact beef products that do not
                  meet the standard of identity of Section 9, Code of Federal Regulations
                  (CFR) 319.15 (a), (b), or (c) such as raw ground beef sausages and meatballs,
                  are excluded from testing. Agency officials stated that their policy was based
                  on their assessment of the risk factors involved in different types of ground
                  beef products, including the expectation that consumers are more likely to
                  fully cook these products than tested products such as bulk ground beef and
                  hamburger patties. However, the agency could not provide documentation to
                  support these determinations. As a result, there is a reduced level of
                  assurance that products from establishments which produce such products
                  will be free of this pathogen.

Recommendations
In Brief          We recommended that FSIS strengthen its procedures to ensure that all
                  establishments subject to Salmonella testing are identified. In addition, we
                  recommended that modifications be made to the PBIS to allow PREP to draw
                  establishment information directly from that system rather than depending on
                  manual updates. We also recommended that FSIS develop a risk assessment
                  to support its policy for excluding low-volume establishments from
                  Salmonella testing or conduct testing in all plants, and that the agency obtain
                  scientific advice to evaluate whether its policy of not testing certain raw
                  ground beef products for E. coli O157:H7 contamination should be
                  continued.

Agency Response   In their response dated September 26, 2006, FSIS officials generally agreed
                  with the findings and recommendations contained in this report. We have
                  incorporated applicable portions of FSIS’ response, along with our position,
                  in the Findings and Recommendations section of this report. The agency’s
                  response is included in its entirety as exhibit D of the report.

OIG Position      We agree with FSIS officials’ response to the recommendations and have
                  reached management decisions on Recommendations 1, 2, 3, 4, and 6.
                  Management decision has not been reached for Recommendation 5.
                  Management decision can be reached on this recommendation once we
                  receive the information specified in the OIG Position section for this
                  recommendation.




USDA/OIG-A/24601-0007-Ch                                                                Page ii
Abbreviations Used in This Report

AMR               Advanced Meat Recovery (Systems)
eADRS             Electronic Animal Disposition Reporting System
E. coli O157:H7   Escherichia coli O157:H7
FSIS              Food Safety and Inspection Service
HACCP             Hazard Analysis and Critical Control Point (System)
IPPS              In-Plant Performance System
IT                Information Technology
OFO               Office of Field Operations
OPHS              Office of Public Health and Science
OPPED             Office of Policy, Program and Employee Development
PBIS              Performance Based Inspection System
PREP              Pathogen Reduction Enforcement Program
PR/HACCP          Pathogen Reduction/Hazard Analysis and Critical Control Point (System)
RTE               Ready-to-Eat




 USDA/OIG-A/24601-0007-Ch                                                             Page iii
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. Microbiological Testing Programs Do Not Include All Required Establishments..... 4

        Finding 1             Salmonella Testing Frame Significantly Understated............................................. 5
                                  Recommendation 1 .......................................................................................... 8
                                  Recommendation 2 .......................................................................................... 8
                                  Recommendation 3 .......................................................................................... 9
        Finding 2             In At Least One District, Talmadge-Aiken Establishments Were Excluded
                              From PR/HACCP Salmonella Sampling............................................................... 10
                                  Recommendation 4 ........................................................................................ 11

    Section 2. Some Establishments and Products Are Excluded From FSIS Microbiological
                 Testing ....................................................................................................................... 13

        Finding 3             FSIS Excludes Small and Low-Volume Establishments From Its Salmonella
                              Testing Program .................................................................................................... 13
                                  Recommendation 5 ........................................................................................ 15
        Finding 4             Some Raw Ground Beef Products Are Excluded From E. coli O157:H7
                              Testing................................................................................................................... 16
                                  Recommendation 6 ........................................................................................ 18

Scope and Methodology........................................................................................................................ 19

Exhibit A – Nationwide List of Establishments Potentially Excluded from PR/HACCP
            Salmonella Sampling Frame........................................................................................... 20
Exhibit B – District 50 Establishments Not Included In PR/HACCP Salmonella Sampling
            Frame................................................................................................................................ 21
Exhibit C – Potentially Eligible Establishments Not Included in Nationwide HACCP
            (HC01) Sampling Frame (Excluding District 50)......................................................... 22
Exhibit D – Agency Response to the Draft Report ............................................................................ 23




 USDA/OIG-A/24601-0007-Ch                                                                                                                    Page iv
Background and Objectives
Background                            The Food Safety and Inspection Service (FSIS) was established by the
                                      Secretary of Agriculture on June 17, 1981, to ensure that the Nation’s
                                      commercial supply of meat, poultry, and egg products is safe, wholesome,
                                      and correctly labeled and packaged. Over 7,600 full-time FSIS inspectors
                                      monitor the slaughter and processing of meat and poultry products at
                                      approximately 6,000 establishments nationwide. FSIS inspectors take
                                      microbiological samples for the various testing programs based on
                                      instructions from FSIS’ Office of Public Health and Science (OPHS), which
                                      manages the various testing programs within FSIS.

                                      In 1996, FSIS issued its landmark rule, Pathogen Reduction: Hazard Analysis
                                      and Critical Control Point (HACCP) System, which replaced the old method
                                      of inspection with a system based on science and laboratory diagnostics. The
                                      new science-based system was designed to improve food safety and make
                                      better use of agency resources. In addition, the final rule established
                                      pathogen reduction performance standards for Salmonella in raw meat and
                                      poultry products. To improve the effectiveness and efficiency of the
                                      laboratory testing programs, FSIS instituted the Pathogen Reduction
                                      Enforcement Program (PREP) system in 2001. The PREP system contains
                                      databases which record key information on all meat and poultry
                                      establishments subject to product testing under three different programs.

                                      •     The PR/HACCP Salmonella program supports the HACCP system by
                                            testing products for the presence of Salmonella. Salmonella was selected
                                            because it can be detected with modern microbiology techniques and is
                                            present in varying degrees in all major species. In addition, the health and
                                            safety concerns stemming from Salmonella contamination in products
                                            marketed to consumers have become of increasing concern to both the
                                            Department and the public. This testing is performed on all products for
                                            which Salmonella testing standards have been developed and incorporated
                                            into the regulations. These include both slaughtered and processed beef
                                            and chicken. In addition, there are standards for slaughtered swine and
                                            processed turkey. Product testing for Salmonella is performed in “sets” of
                                            between 51 and 82 2 individual sample tests. As of November 2005, the
                                            PREP system recorded 1,481 establishments nationwide whose products
                                            were subject to Salmonella testing. In 2005 FSIS field laboratories tested
                                            40,714 initial samples for Salmonella, with additional testing performed
                                            in cases where followup was required.

                                      •     The MT03 program tests raw ground beef products for the presence of the
                                            pathogen E. coli O157:H7. Since this pathogen is classed as an adulterant

2
    9 CFR 381.94 (b) (1), 9 CFR 310.25 (b) (1)
USDA/OIG-A/24601-0007-Ch                                                                                         Page 1
                                          and can cause serious illness or death if ingested with inadequately
                                          cooked product, a single confirmed positive test result is sufficient to
                                          warrant immediate action by FSIS, including the prompt recall of any
                                          product believed to be contaminated. For this testing program, the PREP
                                          system draws its “sampling frame” of eligible establishments directly
                                          from the plant profiles which individual establishment inspectors maintain
                                          as part of the Performance-Based Inspection System (PBIS). As of
                                          February 2006, there were 1,653 establishments nationwide that were
                                          subject to E. coli O157:H7 testing, and during 2005 the field laboratories
                                          performed 10,976 tests.

                                     •    The Ready-To-Eat (RTE) sampling program tests processed meat and
                                          poultry products that can be eaten as-is by consumers without additional
                                          cooking. This testing program looks for the presence of Listeria
                                          monocytogenes, a dangerous pathogen which like E. coli O157:H7 is
                                          classified as an adulterant in meat and poultry products. Like the
                                          MT03 sampling frame, the RTE sampling frame is drawn directly from
                                          the PBIS Plant Profiles, which are electronically updated into PREP on a
                                          monthly basis. In February 2006, there were 2,434 establishments in the
                                          RTE sampling frame, and the agency performed 16,000 laboratory tests
                                          for Listeria monocytogenes in 2005.

                                     In addition to scheduling product tests, PREP also maintains information on
                                     test results and the disposition of product sampling requests. The system
                                     generates a number of standard reports that are provided to the district offices
                                     on a periodic basis to allow them to monitor various aspects of the testing
                                     programs. These reports include the Salmonella Performance Standards
                                     Testing Eligibility Report, which districts use to ensure the completeness of
                                     the manually-updated PR/HACCP Salmonella sampling frame, and the Non-
                                     Responder Report which lists establishments where FSIS inspectors have
                                     failed to respond to requests for product samples. The system also tracks
                                     other information, such as the last date that a particular establishment was
                                     scheduled for product testing or actually had a sample analyzed. Although
                                     not generated in report format on a routine basis, this information can be
                                     accessed through ad hoc reports by trained personnel such as those in FSIS’
                                     Data Systems Management Division.

                                     Prior OIG audits, 3 performed before the PREP system became operational,
                                     disclosed that sampling frames were incomplete, and that as a result not all
                                     eligible establishments were in fact subject to testing. In addition, our earlier
                                     audit work disclosed that FSIS did not track instances in which FSIS
                                     establishment inspectors failed to respond to OPHS requests for product
                                     samples to be tested for Salmonella, E. coli O157:H7, or Listeria

3
    Audit Report Nos. 24601-0001-CH, “Laboratory Testing of Meat and Poultry Products,” June 2000; and 24001-0004-AT, “Followup Audit on the
    Inspector General’s Food Safety Initiative of Fiscal Year 2000,” September 2004
USDA/OIG-A/24601-0007-Ch                                                                                                                 Page 2
                   monocytogenes. In their responses to our earlier recommendations in this
                   area, FSIS officials cited the PREP system as a major component in
                   addressing the reported deficiencies.

Objectives         The objective of this audit was to evaluate the effectiveness of FSIS’ process
                   for scheduling and conducting microbiological testing of meat and poultry
                   products. Specifically, we determined whether: (1) FSIS has effective
                   controls to ensure that all eligible meat and poultry establishments are
                   included in the appropriate sampling database; (2) changes in an
                   establishment’s operational status or type of product are timely reflected in
                   the database; and (3) processes exist to ensure that all establishments are
                   selected for testing within a reasonable amount of time.




USDA/OIG-A/24601-0007-Ch                                                                  Page 3
Findings and Recommendations
Section 1. Microbiological Testing Programs Do Not Include All Required
Establishments

                    Controls need to be materially strengthened to ensure that all required
                    establishments are included in microbiological testing programs conducted by
                    FSIS. We found a significant number of establishments that were excluded
                    from the Salmonella sampling database maintained in the PREP system, due
                    to ineffective controls and to a system for manual followup and input that was
                    not fully understood by FSIS officials at the district office level. At one
                    district, 28 percent of the establishments subject to Salmonella testing were
                    not included in the database. This problem was particularly noticeable in
                    State-inspected establishments that were subject to PREP testing under
                    Federal-State Cooperative Agreements. A key tracking report was not
                    provided to supervisors in these establishments until this situation was
                    identified by our audit. On a nationwide basis, we identified a large number
                    of establishments that may have been inadvertently left out of the sampling
                    process.

                    PREP is an information system that schedules samples and tracks test results
                    of Salmonella sample sets for the Pathogen Reduction/Hazard Analysis and
                    Critical Control Point (PR/HACCP) program. PREP also schedules samples
                    for the MT03 (E. coli O157:H7) and RTE (Listeria monocytogenes) testing
                    programs. OPHS provides microbiological, chemical, and toxicological
                    expertise, leadership, and quality assurance and control for the agency.
                    OPHS also manages laboratory activities including analyses of official
                    samples obtained from meat and poultry establishments under a variety of
                    testing programs. FSIS uses PREP to select establishments for product
                    testing. The system contains separate listings of establishments, referred to as
                    “sampling frames,” which categorize establishments by the type of testing
                    they are subject to. However, unlike the MT03 and RTE sampling frames
                    which drew their information directly from the PBIS Plant Profiles
                    maintained by the establishment inspectors, OPHS relied upon field
                    inspectors to inform them of establishments needing to be tested under
                    PR/HACCP Salmonella.




USDA/OIG-A/24601-0007-Ch                                                                   Page 4
Finding 1          Salmonella Testing Frame Significantly Understated

                   Our review in one district found that the PREP sampling frame for
                   PR/HACCP Salmonella, which identified 99 establishments as being eligible
                   for testing, was understated by 39 establishments (28 percent). This occurred
                   because FSIS had not established an automated control to assist in the
                   identification of such establishments. Instead, they relied upon field
                   inspectors and frontline supervisors to inform them of establishments which
                   needed to be included in the sampling frame. However, personnel at the
                   district level were not always aware of how the system was intended to work,
                   or did not understand their role in it. As a result, the 39 establishments we
                   identified were not being tested for Salmonella, thus reducing the assurance
                   that FSIS would become aware of such contamination.

                   On July 25, 1996, FSIS published its final rule on Pathogen Reduction and
                   Hazard Analysis and Critical Control Point Systems (PR/HACCP), which
                   established new requirements for all meat and poultry products to improve
                   food safety. Under HACCP, all slaughter and processing establishments are
                   required to adopt the HACCP process controls to prevent food safety hazards.
                   To verify that HACCP systems are effective in controlling contamination of
                   raw product with harmful bacteria, the rule sets pathogen reduction
                   performance standards for Salmonella that establishments must meet if they
                   produce certain kinds of products. Establishments affected by the Salmonella
                   testing requirement – under which product samples are obtained by FSIS
                   establishment inspectors and tested by FSIS field laboratories – include
                   slaughtering establishments for cattle, swine, and (chicken) broilers, and also
                   establishments that process raw ground beef, chicken, and turkey. As of June
                   2006, turkey slaughtering establishments were also incorporated into the
                   sampling program to address public concerns over the safety of this product.

                   Qualifying establishments are listed in a “sampling frame” that is maintained
                   by FSIS as an electronic database in its PREP system. FSIS uses this
                   sampling frame each month to select the establishments whose products will
                   be tested for Salmonella contamination. An establishment must be included
                   in the sampling frame in order to be selected for testing. We found that,
                   unlike the other two microbiological testing programs that FSIS operates
                   (E. coli O157:H7 testing for raw ground beef and Listeria monocytogenes
                   testing for Ready-to-Eat products), the PR/HACCP sampling frame is not
                   automatically updated directly from PBIS. This is because the PBIS
                   establishment profiles do not contain data on production levels and operating
                   schedules (see Finding 3) that determines which establishments need to be
                   tested. Instead, this sampling frame must be kept up-to-date manually and is
                   dependent upon FSIS field personnel to identify the eligible establishments
                   within their districts and report them for inclusion.

USDA/OIG-A/24601-0007-Ch                                                                 Page 5
                   Every 6 months, FSIS uses the PREP system to generate the Salmonella
                   Performance Standards Testing Eligibility Report. This report is sent
                   electronically to each frontline supervisor (responsible for visiting inspected
                   establishments and overseeing the activities of FSIS inspectors) and district
                   manager. It lists every establishment under the district’s jurisdiction that, as
                   of the date of the report, was included in the PR/HACCP Salmonella
                   sampling frame.

                   The instructions at the top of each report provide that:

                           . . . District managers and inspection personnel should review
                           plant production activities for all plants to determine if a plant is
                           subject to Salmonella Performance Standard requirements for
                           one or more classes of product. If you are aware that a plant
                           under your jurisdiction is producing a product that is subject to
                           Salmonella Performance Standard testing and the plant is not on
                           this report, you must notify OPHS by sending a reply to this
                           message in Outlook.

                   The instructions also include the production thresholds below which an
                   establishment is exempt from Salmonella testing (see Finding 2).

                   The district analyst and the managers at the district office we visited stated
                   that, based on their understanding, all of the PREP sampling frames were
                   updated directly from the PBIS Plant Profile that each FSIS establishment
                   inspector maintains on an ongoing basis. This profile contains information on
                   the types of products (i.e., beef, chicken) and on the type of processes that
                   each FSIS-inspected establishment uses (slaughter, grinding of raw product,
                   processing of Ready-to-Eat products, etc.). Thus, district officials believed
                   that a qualifying establishment would be automatically added to the sampling
                   frame as long as the PBIS Plant Profile contained correct and complete
                   information on the establishment’s products and operations. District officials
                   informed us that they instructed their frontline supervisors to ensure that
                   establishment inspectors update the Plant Profiles in PBIS.

                   However, as noted earlier, the PR/HACCP Salmonella sampling frame is not
                   drawn directly from the PBIS Plant Profile because FSIS policy excludes any
                   establishment that slaughters fewer than a certain number of animals or birds,
                   or processes fewer than 26 days per year. This information is not contained
                   in the PBIS Plant Profile. The district officials were not aware of this,
                   however, until FSIS Headquarters officials informed them of the policy
                   following our discussions. In interviews with the frontline supervisors, we
                   found that some of them likewise believed that the sampling frame was
                   updated automatically based on the Plant Profile and thus did not use the
                   semiannual Salmonella Performance Standards Testing Eligibility Report.

USDA/OIG-A/24601-0007-Ch                                                                     Page 6
                   As of November 2005, the PR/HACCP sampling frame listed
                   1,481 establishments nationwide. To determine whether the sampling frame
                   contained all of the qualifying establishments that needed to be tested for
                   Salmonella, we obtained a PBIS listing of all FSIS-inspected establishments
                   within the jurisdiction of the district we visited, and identified those whose
                   products should have made them eligible for inclusion in the sampling frame.
                   (Note that we relied on the accuracy of PBIS data, since performing tests of
                   that system was not part of the scope of this audit.) For the slaughter
                   establishments, we were able to eliminate those whose volume of activity
                   (fewer than 500 red meat carcasses slaughtered on less than 100 days, or
                   fewer than 20,000 birds) exempted them under FSIS policy using the
                   Electronic Animal Disposition Reporting System (eADRS). No equivalent
                   report existed for processing establishments, so we could not determine
                   which of those did, or did not, qualify based on their level of activity. We
                   found that a total of 174 establishments in the selected district appeared
                   eligible for Salmonella testing; however, the sampling frame listed only 99 of
                   these. We requested that the district review the remaining 75 establishments
                   to determine whether they met the criteria that would require them to be
                   tested for Salmonella.

                   District officials responded that, as a result of their followup, they determined
                   that 37 of the 75 establishments needed to be added to the sampling frame. In
                   addition, the district identified 2 other establishments that needed to be added
                   to the sampling frame, for a total of 39 (see exhibit B for a profile of these
                   establishments).      The remainder, all processing establishments, were
                   determined ineligible because they operated fewer than the 26-days-per-year
                   threshold or because their products were not covered under FSIS’ testing
                   standards.

                   Because of this large discrepancy, we performed the same review for the
                   remaining districts, and nationwide we found that, excluding the district
                   already     reviewed,      the     PR/HACCP         sampling frame   listed
                   1,382 establishments. Using PBIS and eADRS, we identified an additional
                   790 establishments (see exhibit A) that appeared eligible for the sampling
                   program. Profiles of these establishments are presented in exhibit C. This
                   information was provided to FSIS, so that any necessary followup could be
                   performed. Although some of the 790 establishments will likely be excluded
                   because their processing is too infrequent, it appears that the
                   1,481 establishments in the sampling frame nationwide (including the
                   selected district) could be significantly understated.

                   By contrast, we found that the other sampling frames – which did not rely on
                   field personnel to identify establishments that needed to be included, but
                   instead got their data from the Establishment Profiles in PBIS – did not have
                   this deficiency. Although we recognize that additional data elements are
                   needed to determine eligibility for this sampling frame as opposed to those
USDA/OIG-A/24601-0007-Ch                                                                   Page 7
                   for E. coli O157:H7 and Listeria monocytogenes testing, the number of
                   excluded establishments noted above indicates that in the long term, FSIS
                   needs to develop an automated means of identifying establishments for
                   inclusion in the Salmonella sampling frame. This could, in part, be done by
                   making better use of the information in eADRS. In the interim, agency
                   officials need to take steps to ensure that district managers and frontline
                   supervisors clearly understand their responsibilities for following up on the
                   Salmonella Performance Standards Testing Eligibility Report and ensuring
                   that all eligible establishments are reported to FSIS for inclusion in the
                   sampling frame.

Recommendation 1

                   Issue guidance to more clearly state the responsibilities of field personnel in
                   assuring the Salmonella sampling frame includes all establishments eligible
                   for testing.

                   Agency Response

                   FSIS officials stated that the Office of Policy, Program, and Employee
                   Development (OPPED) will develop an FSIS Notice that gives explicit
                   instructions to District Managers to update the PREP Salmonella sampling
                   frame. Eligibility requirements for the Salmonella sampling frame will be
                   included and will reflect the recently published “FSIS Scheduling Criteria for
                   Salmonella Sets in Raw Classes of Product” which outlines agency policy to
                   allocate sampling within classes of raw product and is based on agency data
                   of variability of process control at individual establishments. The expected
                   completion date is December 2006.

                   OIG Position

                   We accept FSIS’ management decision. Final action can be reached upon
                   issuance of the proposed notice.

Recommendation 2

                   Modify PBIS to incorporate the codings necessary to identify establishments
                   requiring Salmonella testing similar to those presently used for the E. coli
                   O157:H7 and Listeria monocytogenes testing programs.

                   Agency Response

                   FSIS officials stated that the PBIS is being modified to update the Salmonella
                   sampling frame. The response further stated that an FSIS notice has been
                   drafted to inform the districts that they will no longer receive the eligibility
                   report, and that the Salmonella sampling frame will be derived in part, from
USDA/OIG-A/24601-0007-Ch                                                                  Page 8
                   electronic PBIS data. Instructions are provided for identifying new
                   establishments or establishments that begin making an eligible product, and
                   getting them added to the frame. They expect this action to be completed in
                   March 2007.

                   OIG Position

                   We accept FSIS’ management decision. Final action can be reached upon
                   completion of the modification and issuance of the notice.

Recommendation 3

                   Use eADRS to the extent necessary to ensure that all establishments eligible
                   for Salmonella testing are included in the sampling frame.

                   Agency Response

                   FSIS officials stated that the frames will be derived, in part, from eADRS
                   data. The agency began using eADRS data to identify establishments
                   slaughtering species for which there is a performance standard or guideline in
                   May 2005. They expect completion in March 2007.

                   OIG Position

                   We accept FSIS’ management decision. Final action can be reached when this
                   action is completed in conjunction with the PBIS modification.




USDA/OIG-A/24601-0007-Ch                                                                Page 9
Finding 2          In At Least One District, Talmadge-Aiken Establishments Were
                   Excluded From PR/HACCP Salmonella Sampling

                   In our visit to one district, we found that establishments inspected by State
                   employees under Federal-State Cooperative Agreements (Talmadge-Aiken
                   establishments) were less likely than FSIS-inspected establishments to be
                   included in the PR/HACCP testing program. This occurred because neither
                   OPHS nor the Office of Field Operations (OFO) had provided specific
                   guidance on how these establishments were to be covered under the existing
                   system for identifying eligible establishments. As a result, we found a
                   notable disparity in the number of slaughter establishments that were left out
                   of the sampling frame. Prior to our review, only 31 percent of the Talmadge-
                   Aiken establishments in the district had been included in the PR/HACCP
                   Salmonella sampling frame, as compared to 81 percent of FSIS-inspected
                   establishments.

                   “Talmadge-Aiken plants,” are authorized under the Talmadge-Aiken Act of
                   1962. The approximately 350 meat and poultry establishments that operate
                   under this program, located in 9 States, are considered Federally-inspected
                   establishments but are in fact inspected by State employees. Unlike State-
                   inspected establishments, these establishments can market their products
                   interstate and are governed by FSIS regulations.

                   The district office we visited (District 50) covers 3 States, one of which
                   (Illinois) had 8 Talmadge-Aiken establishments listed in the PR/HACCP
                   Salmonella sampling frame; these establishments represented about 8 percent
                   of the 99 establishments in the sampling frame for this district. To determine
                   whether establishments producing products subject to microbiological testing
                   under the PR/HACCP Salmonella program were included in the sampling
                   frame, we reviewed eADRS. This system allowed us to determine whether
                   slaughter establishments produced a sufficient volume of product to be
                   subject to testing under current FSIS policy. This review identified 10
                   slaughter establishments that were not in the PR/HACCP Salmonella
                   sampling frame, even though they qualified both in terms of the type of
                   product produced and the level of production. Of these, 9 were Talmadge-
                   Aiken establishments.

                   At our request, the district office verified that 37 of the 75 establishments we
                   questioned should have been included in the sampling frame. Of the
                   37 establishments, 16 were Talmadge-Aiken establishments. The district also
                   identified two additional Talmadge-Aiken establishments that needed to be
                   included in the sampling frame. Thus, of 26 Talmadge-Aiken establishments
                   that should have been included in the PR/HACCP sampling frame,
                   18 (69 percent) had been omitted. By contrast, 19 percent (21 of 112) of the
                   establishments inspected directly by FSIS were omitted.
USDA/OIG-A/24601-0007-Ch                                                                  Page 10
                   FSIS frontline supervisors, who are responsible for ensuring that eligible
                   establishments are included in the Salmonella testing program, are provided
                   the Salmonella Performance Standards Testing Eligibility Report in electronic
                   format when it is issued twice a year. However, in our interview with the
                   Illinois official who oversees inspection operations at the Talmadge-Aiken
                   establishments, we found that he did not have access to FSIS’ system and
                   therefore did not get the report. As a result, the State supervisors who
                   perform equivalent functions to the FSIS frontline supervisors did not have
                   the necessary information to identify establishments that should have been
                   placed in the sampling frame.

                   We discussed this with an FSIS district official, who concurred that the State
                   employees need to have access to this system in order to be effective in
                   identifying establishments whose products need to be tested for Salmonella.
                   As a result of our audit, the district office provided State supervisors with the
                   necessary system access to receive the Salmonella Performance Standards
                   Testing Eligibility Report and to electronically report establishments that
                   need to be added, as FSIS frontline supervisors do. District management
                   stated that they had not received any guidance from FSIS Headquarters on
                   what procedures should be followed to ensure Talmadge-Aiken
                   establishments are included in the sampling frame.

                   An FSIS Headquarters official confirmed that FSIS has not provided
                   guidance, saying that managers in each district were allowed to deal with the
                   Talmadge-Aiken establishments in their own manner. However, the fact that
                   District 50 had not implemented such a process until the time of our audit, as
                   well as the large percentage of Talmadge-Aiken establishments that were not
                   included in the sampling frame, indicates the need for FSIS Headquarters to
                   provide written guidance to the districts to ensure these conditions are not
                   occurring on a nationwide basis.

Recommendation 4

                   Provide written procedures to all district offices to ensure that processes for
                   identifying establishments that need to be tested for Salmonella are applied to
                   Talmadge-Aiken establishments.

                   Agency Response

                   FSIS officials stated that OPPED will develop an FSIS Notice that gives
                   explicit instructions to District Managers to update the PREP Salmonella
                   sampling frame. They expect this action to be completed in December 2006.




USDA/OIG-A/24601-0007-Ch                                                                   Page 11
                   OIG Position

                   We accept FSIS’ management decision. Final action can be reached upon
                   issuance of the notice.




USDA/OIG-A/24601-0007-Ch                                                        Page 12
Section 2. Some Establishments and Products Are Excluded From FSIS
Microbiological Testing

                       Following the massive ConAgra recall of ground beef products in 2002, FSIS
                       officials revoked an earlier policy that exempted some establishments which
                       would otherwise have been subject to product testing for E. coli
                       O157:H7 under the MT03 testing program. However, we noted that some
                       exclusions continue to exist, and establishments that fall under these are not
                       subject to product testing. FSIS could not provide scientific support and/or
                       risk assessments to support these exclusions from testing. We found that
                       because of the time needed to collect and test the required number of samples
                       to complete a sampling set under the PR/HACCP Salmonella testing
                       program, establishments whose slaughter or processing activity falls below a
                       specific threshold are not subject to product testing. Likewise, establishments
                       that produce non-intact beef products that do not meet the standard of identity
                       of 9 CFR 319.15 (a), (b), or (c) are excluded from E. coli O157:H7 testing.
                       FSIS officials stated that certain raw ground beef products are excluded
                       because they involve less risk to the public. However, because of these
                       exclusions, there is a reduced level of assurance that products produced at
                       these establishments will be free of dangerous pathogens.


Finding 3              FSIS Excludes Small and Low-Volume Establishments From Its
                       Salmonella Testing Program

                       The FSIS Salmonella testing program focuses on large establishments, those
                       slaughtering more than 500 meat animals or 20,000 birds per year, and
                       processing establishments that operate on 26 or more days per year. An FSIS
                       official stated that these thresholds were set so that the sample sets required
                       for Salmonella testing could be completed within a reasonable timeframe, but
                       could not provide documentation of the specific factors that went into their
                       determination.      However, excluding smaller slaughter or processing
                       establishments from its Salmonella testing program could also increase the
                       risk that Salmonella contamination or sanitation problems at these smaller
                       establishments could go undetected.

                   FSIS, in its 1996 rule on Pathogen Reduction and Hazard Analysis and
                   Critical Control Point Systems (PR/HACCP), established requirements
                   intended to improve food safety at all meat and poultry slaughter and
                   processing establishments. To ensure that the HACCP programs at each
                   establishment are effective in maintaining acceptable sanitation standards and
                   preventing the contamination of products by harmful microbiological
                   organisms, FSIS created pathogen reduction performance standards for a
                   number of commonly-marketed meat and poultry products including broilers
                   (young chickens, Guineas, etc.), steers, heifers, bulls, cows, and hogs. Any
USDA/OIG-A/24601-0007-Ch                                                                 Page 13
                   establishment producing one of these products is required to submit product
                   samples for Salmonella testing by one of the FSIS field laboratories.
                   Salmonella was selected for this testing program because its presence is
                   considered a sign of overall sanitation problems at an establishment, which
                   could result in public health issues. Unlike E. coli O157:H7 or Listeria
                   monocytogenes, however, a single positive test result for Salmonella is not
                   considered as proof of a significant sanitation problem or a lack of process
                   controls. Therefore, Salmonella testing is done in “sets” of between 51 to
                   82 product samples. The regulations define the number of “positive”
                   Salmonella test results for each product that would warrant enforcement
                   action by FSIS.

                   However, because the time needed to complete the sampling “sets” depended
                   on the activity level of the establishment being tested – with establishments
                   that seldom slaughter or process product taking longer because of product
                   availability issues – FSIS established activity thresholds as part of its
                   sampling eligibility determination for each establishment. As stated in the
                   Salmonella Performance Standards Testing Eligibility Report that OPHS
                   provides to each district twice a year, an “Infrequent Producer” is defined as a
                   establishment that:

                       Produces raw ground beef less than 26 times per year;
                       Slaughters fewer than 500 red meat carcasses on less than
                        100 different days per year; or
                       Slaughters fewer than 20,000 young chickens per year.

                   An FSIS official stated that the 26-times-per-year threshold is interpreted as
                   meaning 26 different days per year, and is applied to any non-slaughter
                   operation (i.e., a processing establishment). The 500-per-year threshold also
                   applies to hogs, and the 20,000-per-year threshold applies to any type of bird
                   (except for turkeys, which were added to the program in June 2006 and are
                   tested only if the establishment produces on 100 or more days per year)
                   covered by the testing program. The official stated that if an establishment
                   slaughters or processes less frequently than described in the standards, an
                   excessive amount of time is required to collect the number of samples needed
                   to complete a sample set. As a result, FSIS excluded such establishments
                   from the testing program and concentrated its efforts on the larger and more
                   frequently-operating establishments.

                   However, FSIS officials could not provide us with any documentation
                   supporting their determination of what establishments to exclude. Nor did
                   they have studies that documented that the risk associated with products
                   produced by smaller establishments was less than that of larger
                   establishments. As a result, FSIS cannot demonstrate that HACCP systems
                   operating at small or low-volume establishments are low-risk for pathogen
                   contamination.
USDA/OIG-A/24601-0007-Ch                                                                  Page 14
                   Because the PBIS Plant Profiles do not contain data on an establishment’s
                   level of activity (see Finding 1), the number of establishments nationwide that
                   would be excluded from the PR/HACCP Salmonella testing program cannot
                   be precisely determined. However, in the district we visited, we found that
                   out of 75 establishments we identified as potentially meeting FSIS criteria for
                   sampling (based on the type of product shown as being produced per the
                   PBIS Plant Profile), 12 (16 percent) were determined by the district to be
                   infrequent producers and therefore exempt. Nationwide, we identified an
                   additional 790 establishments (see exhibit A) that have not been included in
                   the sampling frame for PR/HACCP Salmonella, so it is possible that a similar
                   percentage of these would also be excluded under FSIS policy.

                   Product produced in smaller establishments is consumed by a public knowing
                   that FSIS conducts microbiological testing to ensure the wholesomeness and
                   safety of meat and poultry food products. Therefore, FSIS needs to develop a
                   risk assessment supporting its testing policy or conduct testing in all plants.

Recommendation 5

                   Develop a risk assessment to support the agency’s policy in excluding
                   establishments from Salmonella testing or conduct testing in all plants.

                   Agency Response

                   FSIS officials stated that product produced by plants not included in the
                   Salmonella testing program represents a fraction of a percent of consumer
                   exposure to Salmonella from raw meat and poultry. They believe consumer
                   exposure is minimal from the establishments which are not tested and did not
                   agree to perform a risk assessment. In the risk-based system approach that
                   FSIS is developing, exposure of food safety hazards to the public is related to
                   production volume and this is where they will place their emphasis.

                   OIG Position

                   We cannot reach management decision because FSIS officials have not
                   provided support for their position that risk is based solely on production
                   volume. In fact, FSIS’ own data on non-compliance reports for sanitation
                   demonstrate that, on average, small establishments have sanitation
                   deficiencies at a rate comparable to larger establishments, the only difference
                   being that less product is distributed to the public. To reach management
                   decision, FSIS officials need to provide the recommended risk assessment or
                   else provide for at least a minimal level of testing at smaller establishments.




USDA/OIG-A/24601-0007-Ch                                                                 Page 15
Finding 4                              Some Raw Ground Beef Products Are Excluded From E. coli
                                       O157:H7 Testing

                                       Although FSIS’ testing program for the pathogen E. coli O157:H7 is intended
                                       to ensure the safety of raw ground beef products marketed to the public, we
                                       found that some ground beef products such as meatballs and sausages are not
                                       tested because of an agency determination that they were of sufficiently low
                                       risk that testing was not warranted. As a result, there is reduced assurance
                                       that establishments that produce these products are free from contamination
                                       by E. coli O157:H7.

                                       When E. coli O157:H7 was declared an adulterant in raw ground beef
                                       products in 1994, FSIS began testing raw ground beef for this pathogen at
                                       slaughter and processing establishments. However, when the testing program
                                       was announced, the Texas Food Industry Association filed a case in Federal
                                       Court against the Secretary of Agriculture to prevent this testing. The
                                       plaintiffs, as noted in the court’s ruling dated December 13, 1994, contended
                                       among other things that FSIS and USDA had exceeded their statutory
                                       authority in declaring E. coli O157:H7 an adulterant (as opposed to pathogens
                                       such as Salmonella, which are not classified as adulterants). This contention
                                       was based on the argument that “E. coli contaminated ground beef is not
                                       adulterated because it is only injurious to health if improperly cooked.”

                                       The court disagreed with this contention and ruled in the Department’s favor,
                                       stating that:

                                                  However, unlike other pathogens, it is not “proper” cooking but
                                                  “thorough” cooking that is necessary to protect consumers from
                                                  E. coli. The evidence submitted by defendants indicates that
                                                  many Americans consider ground beef to be properly cooked
                                                  rare, medium rare, or medium . . . therefore, E. coli is a
                                                  substance that renders “injurious to health” what many
                                                  Americans believe to be properly cooked ground beef. Based
                                                  on this evidence, the Court finds that E. coli fits the definition of
                                                  an adulterant under the [Federal Meat Inspection] Act. 4

                                       During our audit, we noted that FSIS inspectors in numerous meat
                                       establishments repeatedly responded to OPHS requests for raw ground beef
                                       product samples under the MT03 (E. coli O157:H7) testing program with the
                                       code that showed that the product was not produced, even though their PBIS
                                       Plant Profiles continued to reflect raw ground beef HACCP processes from
                                       month to month. Our fieldwork included visits to establishments that were
                                       listed in the MT03 sampling frame, and we found that in some cases, the

4
    Title 21 USC, Chapter 12, Meat Inspection, the Federal Meat Inspection Act of 1906.
USDA/OIG-A/24601-0007-Ch                                                                                            Page 16
                                       establishments were producing either “mixed” products containing raw
                                       ground pork as well as beef, raw ground beef products formed into meatballs,
                                       or other products clearly not intended for use as hamburgers or hamburger
                                       patties. The establishment inspectors and frontline supervisors stated that
                                       they had been instructed not to send in samples of such products.

                                       FSIS officials confirmed this, stating that the agency’s policy was to limit the
                                       testing program to raw ground beef or veal products clearly intended for use
                                       as hamburger patties or which otherwise met the standard of 9 CFR
                                       319.15 (a), (b), or (c). They stated that products such as raw ground beef
                                       meatballs and sausages, as well as raw ground beef used in mixed-meat or
                                       spiced products, were excluded. Officials stated that, among other factors,
                                       consumers were more likely to fully cook these products (as referenced in the
                                       Federal Court ruling) than would be the case with hamburgers or other
                                       products that might be made from bulk ground beef marketed to the public.

                                       Officials of the Data Systems Management Division stated that
                                       establishments producing “excluded” raw ground beef products continued to
                                       appear in the MT03 sampling frame because PREP automatically identifies
                                       any establishment whose PBIS Plant Profile carries the code “03B Ground
                                       Beef” as eligible for testing. The 03B code cannot be removed because it is
                                       this code that signals PBIS to schedule tasks for the establishment inspectors
                                       related to ground beef production. They noted that it would be preferable to
                                       send extra testing kits than to take a chance on having PBIS fail to schedule
                                       these tasks, or to miss sending E. coli O157:H7 test kits to establishments that
                                       should be properly included in the testing program.

                                       Based in part on their discussions with OIG, FSIS’ OPPED issued FSIS
                                       Notice 80-05 on December 5, 2005. This notice announced the addition of a
                                       “check box” to the PBIS Plant Profile, which would give the inspector the
                                       ability to identify whether an establishment’s products met the standards of
                                       identity for E. coli O157:H7 testing under 9 CFR 319.15 (a), (b), or (c). 5
                                       Once this feature becomes fully operational, it would be necessary for an
                                       inspector to fill in the check box before PBIS would identify the
                                       establishment as subject to testing under the MT03 sampling frame. Any
                                       establishment for which this box is not checked would be disregarded by the
                                       system when it refreshes the MT03 sampling frame each month. The notice
                                       also restated the types of product that are to be included or excluded from the
                                       testing program. Products specifically excluded include “any raw ground
                                       beef mixed with other species (pork or poultry); raw product comprised only
                                       of beef from advanced meat recovery (AMR) systems; fresh beef sausage,
                                       Italian sausage, and other raw beef sausage products; and raw ground beef
                                       meatballs.”

5
    Title 9-Animals And Animal Products, Chapter III-FSIS, Department of Agriculture, Part 319 Standards of Identity or Composition, Section 319.15
     Miscellaneous Products.
USDA/OIG-A/24601-0007-Ch                                                                                                                    Page 17
                   The procedures, such as the “check box” feature mentioned in the FSIS
                   notice, does not address the question of whether the products excluded under
                   FSIS Notice 80-05 should be included in the E. coli O157:H7 testing
                   program, or should continue to be excluded. FSIS officials were not able to
                   provide us with any studies or test results to substantiate the agency’s position
                   that only certain raw ground beef products were of sufficient risk to warrant
                   testing. Therefore, we believe that FSIS should perform scientific studies to
                   determine whether the risk of E. coli O157:H7 outbreaks from non-
                   hamburger or bulk ground beef products is sufficiently low as to warrant their
                   continued exclusion from the testing program.

Recommendation 6

                   Perform scientific studies to determine whether the risk of E. coli
                   O157:H7 outbreaks from excluded raw ground beef products is sufficiently
                   low as to warrant their continued exclusion from the testing program.

                   Agency Response

                   According to their response, FSIS has sufficient science-based input from the
                   National Advisory Committee on Microbiological Criteria for Foods to guide
                   its approach to ensuring that the risk associated with E. coli O157:H7 in
                   various ground beef components is being properly managed. Moreover, the
                   agency has clearly articulated its intent to further assess proper controls for E.
                   coli O157:H7 in source materials used to make ground beef, as well as for
                   making other non-intact products (including meatballs and sausage products)
                   in recent Federal Register documents. By early November 2006, FSIS
                   expects to issue an FSIS Notice containing instructions for the routine testing
                   of manufacturing trim in establishments that have been identified as suppliers
                   impacted in positive tests for E. coli O157:H7. FSIS believes that this testing
                   of manufacturing trim is a more science- and risk-based approach to ensuring
                   that products made from beef are safe, rather than diverting limited resources
                   for sampling non-ground beef end-products (e.g., sausage and meatballs).

                   OIG Position

                   We accept FSIS’ management decision. Final action can be reached on the
                   issuance of the notice.




USDA/OIG-A/24601-0007-Ch                                                                    Page 18
Scope and Methodology
                   We performed audit work at FSIS Headquarters in Washington D.C., and at
                   the District 50 Office in Lombard, Illinois. We also visited 11 judgmentally-
                   selected meat and poultry establishments located in Illinois. We performed
                   our fieldwork from June 2005 through June 2006.

                   At FSIS Headquarters, we held discussions with officials from OPHS, OFO,
                   and the Information Technology (IT) staff. We reviewed both standard and
                   ad hoc PREP reports to identify the controls and procedures in place to ensure
                   that (1) meat and poultry establishments were properly identified for
                   inclusion in the sampling frames for each testing program; (2) establishments
                   were scheduled for sampling within reasonable timeframes; and, (3) district
                   office personnel provided proper oversight of the process to collect scheduled
                   samples.

                   At the district office and selected establishments, we performed tests to
                   evaluate the operation of these controls and processes at the field level. We
                   reviewed PBIS Plant Profile information as well as the eADRS system on
                   each establishment whose products appeared eligible for Salmonella testing,
                   to identify establishments that may have been excluded; we provided this
                   information to the district office for followup. Based on these results we
                   obtained equivalent information for all establishments nationwide, and
                   provided the results of our evaluation to OPHS for followup. We also held
                   discussions with employees of the Illinois Department of Agriculture to
                   evaluate controls over State-inspected establishments operating under
                   Federal-State Cooperative Agreements. We reviewed data from PREP
                   reports that tracked the disposition of sampling requests for this district and
                   two others, to evaluate the effectiveness of FSIS’ controls to ensure
                   compliance by FSIS establishment inspectors. At the meat and poultry
                   establishments, we observed operations and reviewed PBIS profile
                   information to perform comparisons with data maintained in the PREP
                   system. We did not, however, perform sufficient reviews of PBIS to
                   comment on the accuracy of the establishment profile information.

                   The audit was conducted in accordance with Government Auditing Standards
                   issued by the Comptroller General of the United States.




USDA/OIG-A/24601-0007-Ch                                                                 Page 19
Exhibit A – Nationwide List of Establishments Potentially Excluded from
PR/HACCP Salmonella Sampling Frame
                                                                                      Exhibit A – Page 1 of 1

                               Salmonella Sampling Set
                                      Chicago District Office
                                 Questionable
    Sampling Set             Estblshmts. Identified     Estblshmts. Added
      per FSIS                      by OIG                    by District        Percent Excluded
            99                        75                          39                    28%

                                         Remaining Districts
                                                               Additional Estblshmts. Identified
 District               Sampling Set per FSIS                   by OIG for Potential Inclusion

    05                            118                                         116
    15                            156                                         101
    20                              57                                         52
    25                              56                                         43
    30                              80                                         32
    35                              49                                         18
    40                              66                                         53
    45                              96                                         17
    60                            173                                          85
    65                            203                                          84
    75                              57                                         42
    80                              77                                         56
    85                            121                                          69
    90                              73                                         22

  Total                          1,382                                        790


                                     Potentially Excluded
                 Sampling Set Per FSIS of 1,382 x Rate of Exclusion 1.39 = 1,921
                                  No. Possibly Excluded – 539




USDA/OIG-A/24601-0007-Ch                                                                           Page 20
Exhibit B – District 50 Establishments Not Included In PR/HACCP Salmonella
Sampling Frame
                                                                  Exhibit B – Page 1 of 1



                   Summary of 39 Establishments Questioned
                     by Type of Establishment and Product


             Type of Establishment
                   Processing                                29
                   Slaughter                                  5
                   Combination                                5
                         Total                               39


             Type of Product
                   Ground Beef                               27
                   Ground Chicken                             1
                   Ground Turkey                              1
                   Slaughter – Hogs                           2
                   Slaughter – Steers/Heifers/Hogs            3
                   Combo – Slaughter Steers/Heifers/Hogs/     5
                    Ground Beef
                         Total                               39




USDA/OIG-A/24601-0007-Ch                                                       Page 21
Exhibit C – Potentially Eligible Establishments Not Included in Nationwide
HACCP (HC01) Sampling Frame (Excluding District 50)
                                                                           Exhibit C – Page 1 of 1

              Type of Establishment
                    Processing                                       714
                    Slaughter                                         40
                    Combination                                      36
                           Total                                     790


              Type of Product
                    Ground Beef                                      530
                    Ground Chicken                                   147
                    Ground Turkey                                     37
                    Slaughter – Chicken                               12
                    Slaughter – Chicken/ Guinea                        3
                    Slaughter – Dairy Cows/ Beef cows                  1
                    Slaughter – Hogs                                   6
                    Slaughter – Steers                                 1
                    Slaughter – Steers/ Heifers                        6
                    Slaughter – Steers/ Heifers/ Hogs                 11
                    Combo – Slaughter Chicken/ Ground Chicken          2
                    Combo – Slaughter Hogs/ Ground Beef                1
                    Combo – Slaughter Steers/ Ground Beef              1
                    Combo – Slaughter Steers/ Heifers/ Ground Beef     2
                    Combo – Slaughter Steers/ Heifers/ Hogs/
                                                                      30
                    Ground Beef
                         Total                                       790




USDA/OIG-A/24601-0007-Ch                                                                Page 22
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 1 of 5




USDA/OIG-A/24601-0007-Ch                                        Page 23
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 2 of 5




USDA/OIG-A/24601-0007-Ch                                        Page 24
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 3 of 5




USDA/OIG-A/24601-0007-Ch                                        Page 25
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 4 of 5




USDA/OIG-A/24601-0007-Ch                                        Page 26
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 5 of 5




USDA/OIG-A/24601-0007-Ch                                        Page 27
